CERTIFICATE OF SERVICE

I hereby certify that on this 6th day of November, 2019, I served a copy of the Application
for Extension of Time to File Petition For Writ of Certiorari on counsel for respondent by placing it

in the United States mail, first class postage prepaid, addressed to:

Jeffry A. Miller

Lewis Brisbois Bisgaard & Smith LLP
701 B Street

Suite 1900

San Diego, CA 92101

(619) 233-1006

I further certify that all parties required to be served have been-served./

 
   
 

Counsel for Petitioney
